Department of Homeland Security
   Ofﬁce of Inspector General

            FEMA's Disaster Assistance 

               Improvement Plan 





OIG-10-98                                  June 2010
                                                             Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                                   JUN 2 9 2010
                                      Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the results of our audit of the Federal Emergency Management
Agency's implementation of its Disaster Assistance Improvement Plan. It is based on
interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                     L~~·~
                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations 


Executive Summary ............................................................................................................ 1 


Background ......................................................................................................................... 2 


Results of Review ............................................................................................................... 4 


     Registering Disaster Survivors In a One-Stop Manner................................................. 4 

     Recommendation .......................................................................................................... 8 

     Management Comments and OIG Analysis ................................................................. 9 


     Disaster Assistance Improvement Plan Internal Controls ............................................ 9 

     Recommendation ........................................................................................................ 10 

     Management Comments and OIG Analysis ............................................................... 10 


     Coordination with State/Local Governments and Voluntary Organizations .............. 11 

     Recommendation ........................................................................................................ 12 

     Management Comments and OIG Analysis ............................................................... 12 



Appendices

     Appendix A:           Purpose, Scope, and Methodology.......................................................13 

     Appendix B:           Management Comments to the Draft Report .......................................14 

     Appendix C:           Major Contributors to This Report ......................................................19 

     Appendix D:           Report Distribution ..............................................................................20 


Abbreviations

     DAIP                  Disaster Assistance Improvement Plan 

     DHS                   Department of Homeland Security 

     DoED                  Department of Education 

     DSNAP                 Disaster Supplemental Nutrition Assistance Program
 

     DUA                   Disaster Unemployment Assistance 

     FEMA                  Federal Emergency Management Agency 

     FOAs                  Forms of Assistance 

     IAC                   Individual Assistance Center 

     NEMIS                 National Emergency Management Information System
 

     NVOAD                 National Voluntary Organization Active in Disaster 

     OMB                   Office of Management and Budget 

     PMO                   Program Management Office 

     SBA                   Small Business Administration 

     SSA                   Social Security Administration 

     USDA                  United States Department of Agriculture 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                We audited the Federal Emergency Management Agency’s
                progress in improving the delivery of federal disaster assistance.
                Executive Order 13411, titled “Improving Assistance for Disaster
                Survivors” directed the Secretary of Homeland Security to lead an
                interagency task force with the mission of improving the
                promptness and efficiency with which disaster applicants obtain
                access to eligible federal disaster assistance. The Secretary
                established a Task Force Executive Steering Committee,
                comprised of several federal agencies, to develop a plan outlining a
                strategy for improving the delivery of federal disaster assistance.
                The strategy developed by the Committee, the “Disaster Assistance
                Improvement Plan,” was approved by the President on September
                14, 2007.
                FEMA faces challenges in implementing a “one-stop” disaster
                assistance application system because of the inability of partner
                agencies’ systems to interface with DisasterAssistance.gov, and
                partner agencies’ reluctance to provide funding to support the
                program. FEMA was in the process of drafting internal control
                standard operating procedures but had not yet developed,
                implemented, or strengthened controls. Further, the agency was in
                the process of coordinating with state, local, and voluntary
                organizations to integrate forms of assistance administered at the
                state and local level.
                The Federal Emergency Management Agency needs to implement
                a funding model to ensure that it is capable of supporting the entire
                Disaster Assistance Improvement Plan program to include current
                contributions made by partner agencies. Further, FEMA needs to
                develop, implement, and strengthen internal controls to prevent
                improper payments and other forms of fraud, waste, and abuse.
                Finally, FEMA needs to assist pilot states with integration
                capabilities to interface with the Disaster Assistance Improvement
                Plan.
                We are making three recommendations to improve the Federal
                Emergency Management Agency’s Disaster Assistance
                Improvement Plan. The agency agreed with our recommendations
                and has taken action to resolve them.


                 FEMA’s Disaster Assistance Improvement Plan

                                     Page 1
Background
                          Following Hurricane Katrina, survivors encountered conflicting
                          and confusing information when seeking Federal disaster
                          assistance. On August 29, 2006, the President issued Executive
                          Order 13411, titled “Improving Assistance for Disaster Survivors,”
                          directing the Secretary of Homeland Security to lead an
                          interagency task force with the mission of improving the
                          promptness and efficiency with which disaster applicants obtain
                          access to eligible federal disaster assistance. The Secretary of
                          Homeland Security established a Task Force Executive Steering
                          Committee, comprised of several federal agencies, to develop a
                          plan outlining a strategy for improving the delivery of federal
                          disaster assistance. The strategy developed by the Committee, the
                          “Disaster Assistance Improvement Plan,” was approved by the
                          President on September 14, 2007. The plan outlined a strategy to
                          implement a consolidated and unified disaster application
                          capability/system no later than December 31, 2008, subject to
                          funding. There are seventeen federal partners (see Table 4)
                          including Department of Homeland Security (DHS)/Federal
                          Emergency Management Agency (FEMA) that provide over 50
                          forms of assistance. FEMA launched the website
                          DisasterAssistance.gov on December 31, 2008.
                          The primary purpose of the Disaster Assistance Improvement Plan
                          (DAIP) was to build a comprehensive system allowing disaster
                          applicants to apply just once for various forms of assistance
                          (FOAs). To achieve this, two existing systems: (1)
                          GovBenefits.gov and (2) FEMA’s National Emergency
                          Management Information System (NEMIS) Individual Assistance
                          Center (IAC) were modified to facilitate the application process for
                          disaster assistance and eliminate the need to develop a duplicative
                          and costly new system. The DAIP Four Phase Implementation
                          Schedule is shown in Table 1.
    Table 1. DAIP Four Phase Implementation Schedule
     Phase               Description                                 Timeline
       1        Initial Operating Capability         October 15, 2007 to December 31, 2008
       2        Pilot Integration-Federally          January 1, 2009 to March 31, 2010
                funded State/Local FOAs
        3       State and Local Integration          April 1, 2010 to September 30, 2013
        4       Non-Disaster Specific FOAs,          October 1, 2013 to September 30, 2015 1
                Federal, State, and Local
    Source: FEMA

1
 Additional phases beyond 2013 are representational and will be reviewed with the DAIP partnership in
future revisions of the DAIP Strategic Plan.

                            FEMA’s Disaster Assistance Improvement Plan

                                                 Page 2
                  The single application concept allows citizens to locate and
                  identify disaster assistance programs and apply for assistance from
                  multiple programs during a single application session. For other
                  participating programs, the NEMIS IAC routes information to a
                  data exchange point and then to partner agencies. Through an
                  expanded GovBenefits capability, applicants will be able to locate
                  and identify additional forms of assistance available from states,
                  local jurisdictions, and voluntary agencies. During the process, the
                  applicant’s information is verified using a commercial third party
                  identity verification service. Figure 1 illustrates the federal
                  disaster assistance application process.
Figure 1. FEMA’s Disaster Assistance Application Process




Source: FEMA




                   FEMA’s Disaster Assistance Improvement Plan

                                       Page 3
                     Disaster Assistance Registration

                     FEMA has monitored disaster assistance registration phone calls and
                     internet applications since the release of DisasterAssistance.gov.
                     Over 33% of the total registrations during the period December 31,
                     2008, through April 30, 2009, have been through internet
                     registrations. FEMA also determined that the visitor count for the
                     website totaled 176,050 visitors for this four month period. The total
                     disaster assistance registrations for this period are shown in Table 2.

 Table 2. Disaster Assistance Registration as of April 30, 2009

                            Disaster Assistance Registration
  Sites and Territories with    California, Florida, Hawaii, Illinois, Indiana, Iowa,
  Federally Declared            Louisiana, Mississippi, Missouri, Oklahoma, Puerto
  Disasters                     Rico, Texas, Washington, Wisconsin
  Call Center Registrations     12,610
  Internet Registrations          6,819
  Total Registrations           19,429
 Source: FEMA
                     Disaster Assistance Applicant Satisfaction

                     FEMA reported that overall satisfaction with DisasterAssistance.gov
                     was excellent to good among a sample of respondents. Survey
                     reports included 755 responses from applicants impacted by four
                     declared disasters from December 31, 2008, through April 30, 2009.
                     Survey topics included access to websites, the pre-screening
                     questionnaire, the ability to browse information by category or
                     agency, and the experience of completing an online registration.
                     Some respondents wanted more concise and less complicated
                     information, but the majority of respondents found the website to be
                     very helpful.


Results of Review

      Registering Disaster Survivors In a One-Stop Manner

                     FEMA has made progress in implementing a disaster assistance
                     application process that provides eligible disaster survivors with
                     federal disaster assistance and successfully launched
                     DisasterAssistance.gov on December 31, 2008. However, FEMA
                     faces challenges in implementing a “one-stop” disaster assistance
                     application system because of the inability of partner agencies

                       FEMA’s Disaster Assistance Improvement Plan

                                           Page 4
                    systems to interface with DisasterAssistance.gov, and partner
                    agencies’ reluctance to provide funding to support the program.
                    FEMA, as managing partner, and in collaboration with 16 federal
                    partner agencies, launched DisasterAssistance.gov to provide
                    access to eligible federal disaster assistance across multiple federal
                    agencies on December 31, 2008. In Phase 1, FEMA implemented
                    the capability to transfer data between FEMA and three other
                    federal agencies: the Small Business Administration (SBA), the
                    Social Security Administration (SSA), and the Department of
                    Education (DoED). This means an applicant can apply for disaster
                    assistance through DisasterAssistance.gov from these agencies
                    without having to apply separately to each individual agency.
                    However, when applicants need assistance from other federal
                    agencies, applicants can visit the DAIP website and take the
                    questionnaire to determine their eligibility for program benefits.
                    Subsequently, applicants can then link to the appropriate federal
                    agency to apply for assistance. The DAIP has strengthened the
                    application process for applicants but FEMA faces challenges in
                    implementing a comprehensive “one-stop” disaster assistance
                    application system.

                    DAIP Phase 1 Program Requirements

                    The goal of Phase 1 was to include forms of assistance that delivered
                    a disaster-related benefit to an individual at the federal level. The
                    focus of Phase 1 of the DAIP was to make necessary infrastructure
                    updates to the DHS/FEMA IAC application and GovBenefits.gov to
                    support the DAIP requirements. The timeline for the initial
                    operating capability was from October 14, 2007, to December 31,
                    2008.

                    The program requirements for Phase 1 were outlined in scope
                    statement documents and included 32 requirements to be completed
                    by December 31, 2008. The completion status of these requirements
                    is shown in Table 3.

Table 3. Completion Status of Phase 1 Program Requirements

                                                                    Number of
                  Status of Completion                             Requirements
 Requirements to be completed by December 31, 2008                      32
 Requirements completed by December 31, 2008                            10
 Requirements deferred to Phase 2 (January 1, 2009 to                   22
 March 31, 2010)
 Requirements not completed as of April 30, 2009                          22
Source: OIG, based on information provided by FEMA


                     FEMA’s Disaster Assistance Improvement Plan

                                           Page 5
                         FEMA officials explained that requirements were deferred to
                         Phase 2 so the website DisasterAssistance.gov could be launched
                         on time. FEMA officials also explained that requirements were
                         deferred for the following reasons:

                         �	 $1.4 million funding reduction impacted program management,
                            design, and infrastructure updates.
                         �	 Five month delay (from January 2008 to May 2008) in securing
                            a contract to begin design and implementation of the DAIP
                            service oriented architecture environment.
                         �	 Three month delay in the DAIP development schedule.

                         FEMA indicated that progress is being made to implement the
                         deferred requirements. It should also be noted that three
                         requirements were deferred to Phase 2 at the request of the partner
                         agencies. 2

                         FEMA Challenges

                         FEMA faces challenges in implementing a comprehensive “one-
                         stop” disaster assistance application system. These challenges
                         include the inability of partner agencies systems to interface with
                         DisasterAssistance.gov and the difficulty in obtaining funding to
                         support the DAIP program. These challenges are further discussed
                         as follows:

                         Partner Agencies

                         Partner agencies have been reluctant to push forward to full
                         integration with DAIP due to the inability of systems to interface
                         with the DAIP, concerns over security/privacy requirements, and a
                         lack of funding. Due to technological and funding issues, some
                         partner agencies do not possess a compatible interface with
                         DisasterAssistance.gov. The following examples illustrate some of
                         the difficulties partner agencies have faced and the impact on their
                         ability to fully integrate FOAs into the DAIP program.

                         �	 SSA. SSA officials did not anticipate receiving Information
                            Technology Advisory Board approval for the two new FOAs that
                            were previously accepted in the DAIP FOAs validation study.
                            SSA was also concerned about exposing the SSA systems
                            through an interface. SSA had additional concerns about adding
                            FOAs as interfaces beyond the current change of address FOA

2
 Partner agencies requesting deferral of FOAs were the US Department of Treasury, Housing and Urban
Development, and the Small Business Administration.

                           FEMA’s Disaster Assistance Improvement Plan

                                               Page 6
   and the main difficulty appeared to be the availability of
   resources.

�	 Treasury. Treasury officials deferred integration of the GoDirect
   program prior to the initial launch of DisasterAssistance.gov in
   2008 because of fiscal concerns. Treasury officials were
   concerned that the program would not be funded in future years
   unless it continued to show a return on investment. FEMA and
   Treasury officials agreed to include the GoDirect program as an
   informational referral with a web link in 2009 and to continue
   discussions for a full interface for later in 2009.

�	 US Department of Agriculture (USDA). USDA officials
   indicated that many of the USDA programs are paper-based or
   use antiquated computer technology and the cost of building new
   systems to enable an interface is considerable. USDA officials
   have discussed future possibilities with DAIP, but currently,
   USDA does not have the resources to redesign its systems to
   accept an interface with DAIP.

DAIP Funding Concerns

FEMA has faced challenges with obtaining the appropriate funding
from its partner agencies. Partner agencies have been reluctant to
push towards full online integration of their programs when it will
involve increased costs. FEMA officials commented that when
funding for development was not provided in a timely manner, the
DAIP would not be fully implemented and the program would
have limited capabilities.

Partner agency contributions are currently determined by the
number of FOAs the agency offers to disaster survivors for
integration into DAIP. This model charges federal partners based
on the number of FOAs an agency has, and the type of interface it
is capable of supporting. FEMA officials commented that two of
the biggest obstacles facing the DAIP are reaching agreement on
an equitable funding formula, and collecting funds from partner
agencies. FEMA officials also commented that if FEMA were to
fund the entire program, FEMA would be better able to identify
FOAs, build interfaces with partner agencies, and establish service
level agreements across federal agencies.

As managing partner, FEMA contributes approximately 80% of
the overall funding and the remaining 20% is provided by the
partner agencies. Funds received to support the DAIP in FYs 2008
and 2009 are shown in Table 4.


 FEMA’s Disaster Assistance Improvement Plan

                     Page 7
Table 4. DHS/FEMA and Partner Agencies Funds Received in FYs 2008 and 2009

       DHS/FEMA and PARTNER AGENCIES                         FY 2008           FY 2009
Department of Agriculture                                          $696,866       $696,866
Department of Commerce                                               74,811         61,111
Department of Defense                                               315,000         61,111
Department of Education                                             476,373        307,136
Department of Health and Human Services                             696,866        696,866
Department of Housing and Urban Development                               0        254,775
Department of Interior                                              204,160         61,111
Department of Justice                                                74,811         74,811
Department of Labor                                                1,169,209       448,869
Department of State                                                 204,160         61,111
Department of Transportation                                         74,811         61,111
Department of Treasury                                              476,373        294,225
Department of Veterans Affairs                                      476,373        279,162
Office of Personnel Management                                      476,373         61,111
Small Business Administration                                       204,160        204,160
Social Security Administration                                      476,373        279,162
Federal Emergency Management Agency/DHS                           17,999,280    17,990,000
                    TOTAL                                     $24,095,999      $21,892,698
Source: FEMA

                   Conclusion

                   FEMA has made progress in implementing a disaster assistance
                   application process that provides eligible disaster survivors with
                   federal disaster assistance and successfully launched
                   DisasterAssistance.gov on December 31, 2008. However, FEMA
                   faces challenges in implementing a “one-stop” disaster assistance
                   application system because of the inability of partner agencies’
                   systems to interface with DisasterAssistance.gov, as well as, partner
                   agencies’ reluctance to provide funding to support the program.

               Recommendation

                   We recommend that the Administrator, Federal Emergency
                   Management Agency:

                   Recommendation #1: Implement a funding model to ensure that
                   FEMA funds the entire DAIP program to include current


                    FEMA’s Disaster Assistance Improvement Plan

                                        Page 8
           contributions being made by the partner agencies to enhance the
           development and integration of the DAIP.


     Management Comments and OIG Analysis

           The Office of Policy and Program Analysis concurred with this
           recommendation. FEMA responded that a new funding model for
           FY 2012 was presented to the DAIP Executive Steering Committee
           and ratified on April 7, 2010. FEMA has accepted a 94% funding
           commitment for the program from FY 2011 to 2012. The DAIP
           Program Management Office (PMO) and its Executive Sponsor will
           continue to pursue 100% FEMA funding with the Office of
           Management and Budget’s (OMB’s) FEMA Resource Manager and
           the FEMA Chief Financial Officer. We consider this
           recommendation resolved but open, pending review of corrective
           actions taken.

           FEMA also suggested that we update information in Tables 3 and 4
           of the draft report:

           Table 3, Completion Status of Phase 1 Program Requirements. We
           obtained documentation during the audit that supported our
           assessment that 10 of 32 program requirements were completed by
           December 31, 2008 as reported in Table 3. In written comments,
           FEMA stated that 25 of 30 requirements were completed and 5
           requirements were not completed by December 31, 2008; however,
           FEMA has not provided any documentation to support these figures.

           Table 4, DHS/FEMA, Partner Agencies Funds Received in FYs
           2008 and 2009 (as of April 30, 2009). FEMA recommended that
           Table 4 be revised to reflect updated funding contributions for FYs
           2008 and 2009. We concurred with FEMA’s request and updated
           this table.


DAIP Internal Controls

           FEMA is required by Executive Order 13411 to include an
           approach to strengthen internal controls to prevent improper
           payments and other forms of fraud, waste, and abuse in the
           Disaster Assistance Improvement Plan. As of May 2009, FEMA
           was in the process of drafting internal control standard operating
           procedures for DAIP but had not yet developed, implemented, or
           strengthened the controls as outlined by the Executive Order.
           FEMA officials developed draft internal controls standard
            FEMA’s Disaster Assistance Improvement Plan

                                Page 9
     operating procedures that included the internal control elements of
     control environment, risk assessment, control activities,
     information and communications, and monitoring. However,
     FEMA officials said that many of the planned activities outlined in
     the draft internal controls standard operating procedures have not
     yet been initiated. FEMA officials also commented that planned
     activities include:

     �	 Developing a list of fraud indicators that FEMA has learned
        over the years of disaster survivors applying for assistance with
        fraudulent information.
     �	 Developing an investigative queue for holding applications
        marked for manual review as they have triggered one or more
        of the fraud indicators.
     �	 Proposing the development of a Fraud Awareness Training
        Plan.
     �	 Developing plans to implement as many controls and monitors
        as practical.

     FEMA officials said that planned activities will continue to be
     refined in order to determine an approach for satisfying the
     requirement of the Executive Order.

     Conclusion

     FEMA was in the process of drafting internal control standard
     operating procedures but had not yet developed, implemented, or
     strengthened controls as required by the Executive Order.

Recommendation

     We recommend that the Administrator, Federal Emergency
     Management Agency:

     Recommendation #2: Develop, implement, and strengthen internal
     controls to prevent improper payments and other forms of fraud,
     waste, and abuse.


Management Comments and OIG Analysis

     The Office of Policy and Program Analysis concurred with this
     recommendation. In written comments, FEMA agreed that the
     statement was true with regard to DAIP, but is not true for FEMA as
     an agency and noted improved internal controls were implemented


      FEMA’s Disaster Assistance Improvement Plan

                          Page 10
                         following hurricanes Katrina and Rita. 3 We have revised this
                         section to clarify that our assessment is limited to DAIP. DAIP has
                         worked with the FEMA Fraud Investigation Branch Chief and
                         Individual Assistance Audit Group to identify additional controls
                         that could be implemented with the development of a flagging
                         system and holding queue. We consider this recommendation
                         resolved but open, pending review of corrective actions taken.


        Coordination with State/Local Governments and Voluntary
        Organizations

                         FEMA’s efforts to coordinate the disaster assistance application
                         process with state/local and voluntary organizations are underway
                         as part of the DAIP Phase 2. FEMA analyzed federally funded
                         state administered FOAs from six disaster prone states for
                         integration with DisasterAssistance.gov. However, FEMA
                         officials said that the pilot program is hindered by the lack of
                         technological readiness on the part of the state administered
                         programs to integrate and that efforts to integrate are not likely to
                         succeed within the Phase 2 timeline.

                         FEMA has initiated outreach to the non-profit community. In June
                         2009, initial meetings were held with the leadership of the National
                         Voluntary Organizations Active in Disaster (NVOAD), which is a
                         consortium of 47 non-profit agencies that work in all phases of
                         disasters. FEMA plans on briefing each NVOAD committee, in
                         addition to setting up briefings through DAIP committee liaisons
                         to brief the state VOADS as well. Some of the NVOAD members
                         include; American Red Cross, Catholic Charities USA, Feed the
                         Children, the Salvation Army, and United Way of America.
                         According to FEMA officials, discussions with non-profit agencies
                         should result in integration implementation beginning in Phase 4.

                         DAIP Phase 2 Requirements

                         The focus of Phase 2 was for FEMA to initiate a pilot program
                         with the six most disaster-prone states in order to integrate
                         federally funded FOAs at the state and local level. The timeline
                         for the Phase 2 pilot integration extends from January 1, 2009, to
                         March 31, 2010. We reviewed the DAIP in Phase 2 from January
                         1, 2009, to April 30, 2009.
3
 We reported that FEMA had made improvements in internal controls since the 2005 Gulf Coast
Hurricanes for FEMA’s Individuals and Households Program Registration Process. DHS-OIG,
Improvements to Internal Controls for FEMA’s Individuals and Households Program Registration Process,
(OIG-09-110, September 2009).

                          FEMA’s Disaster Assistance Improvement Plan

                                               Page 11
     The pilot program focused on key disaster FOAs administered by
     six states: California, Florida, Louisiana, New York, Oklahoma,
     and Texas. These states have had the highest number of declared
     disasters. In 2007, 40.3% of FEMA disaster assistance
     applications were received from these six states. Within the six
     pilot states, FEMA identified six FOAs that were federally funded
     and administered at the state or local level. However, FEMA
     officials determined that the US Department of Agriculture’s
     Disaster Supplemental Nutrition Assistance Program (DSNAP),
     also called Food for Florida, was the only online application
     capable of integrating with DisasterAssistance.gov. FEMA
     officials noted that the Department of Labor’s Disaster
     Unemployment Assistance (DUA) Program presented possible
     opportunities for integration in four of the six states.

     Conclusion

     FEMA officials are in the process of coordinating with state, local,
     and voluntary organizations to integrate forms of assistance
     administered at the state and local level but those efforts are not
     likely to succeed within the Phase 2 timeline.


Recommendation

     We recommend that the Administrator, Federal Emergency
     Management Agency:

     Recommendation #3: Assist pilot states with integration
     capabilities in order to interface with DAIP and expand the pilot
     program to include other states that have state administered
     programs and an online capability to integrate with
     DisasterAssistance.gov.


Management Comments and OIG Analysis

     The Office of Policy and Program Analysis concurred with this
     recommendation. FEMA responded that the Food for Florida
     DSNAP program is scheduled for integration with
     DisasterAssistance.gov in June 2010. DAIP is developing a generic
     DSNAP interface that can be leveraged by other states. DAIP is also
     working toward developing a generic DUA interface that could be
     leveraged by states as they automate their DUA systems. We
     consider this recommendation resolved but open, pending review of
     corrective actions taken.

      FEMA’s Disaster Assistance Improvement Plan

                          Page 12
Appendix A
Purpose, Scope, and Methodology

                   The purpose of this audit was to determine the progress of
                   FEMA’s disaster assistance improvement plan to: (1) register
                   disaster survivors in a one-stop manner, (2) safeguard against
                   waste, fraud, and abuse, and (3) coordinate with state and local
                   governments and voluntary organizations.

                   We interviewed FEMA officials at headquarters and Program
                   Management Office officials in the field. We reviewed FEMA’s
                   progress in implementing a disaster assistance application process
                   and reviewed documentation related to the DAIP, the program
                   charter, milestone status reports, Phase 1 and 2 scope statements,
                   and other related documentation. Additionally, we obtained
                   funding documents, customer satisfaction surveys, partner agency
                   documentation, internal control documents, and meeting minutes.
                   This report presents the status of implementation of Phase 1 and
                   Phase 2 of the DAIP as of April 30, 2009.

                   We began our review in February 2009 and completed it in July
                   2009.

                   We conducted this performance audit under the authority of the
                   Inspector General Act of 1978, as amended, and according to
                   generally accepted government auditing standards. These standards
                   require that we perform the audit to obtain sufficient, appropriate
                   evidence to provide a reasonable basis for our findings and
                   conclusions. We believe the evidence obtained and used to develop
                   the Results of Audit section provides a reasonable basis for our
                   findings and conclusions based on our audit objectives.




                    FEMA’s Disaster Assistance Improvement Plan

                                        Page 13
Appendix B
Management Comments to the Draft Report



                                                                              u_.;, 11'1""''''<"' ur lIunl<,."d   !>t<u";,~,
                                                                              500 C S,,,,,,•. SW
                                                                              \\'"hlll,glon.IX: 2(l.1n




                                           MAY     7 21110



          MEMORANDUM FOR:               Mall Jadacki
                                        Deputy Inspcctor General
                                        Office of Emergency Management Oversight
                                        Office of Inspector General

                                        David J. Kaufman N. /
          FROM:
                                        Director             r
                                        Office of Policy and Program Analysis

          SUBJECT:                      Comlllents on DIG Draft Report, F£MA's Disaster
                                        AssiSlallce ImprOl'Cmelll PIal!

          Thank you for the opportunity to review and comment on the Office of Inspector
          General's (DIG's) subject draft audit report. As the Ft-deral Emcrgeney Management
          Agency (FEMA) works toward refining its programs, the DIG's independent analysis of
          program pcrfonnance greatly benefits our ability to continuously improve our activities,

          The following arc comments regarding the audit's observations and conclusions which
          are organi~ed below by the titled sections of your draft report:

          DAIP Phase I Program Requirements

          On page 4 of the draft report, Table 3: Complclion St({/IIS oj PJ/(/)"c f Program
          RcquircmCIl/S is intended to outline infonnation regarding how well the Disaster
          Assistancc Improvement Plan (DAIP) was implemented during Phase I to fulfill the need
          for initial operating capability. The table docs not accurately depict the accomplishments
          of the progmm during Phase l.

          The Phase 1 Scope Statement outlines 30 program rcquirements across three broad
          catcgories (DAIP Program Managcment Office, Individual Assistance Center and
          GovBenclits.gov) and provides guidance to the program to implement interfaces with
          foms of assistance (FOAs) in three of the live prob'l"am FDA emegories. Of the 30
          requirements outlined in the Phase I Scope Statement, 25 were completed by December
          31, 2008. The remaining live WCTC deferred to Phase 2 for completion.




                          FEMA’s Disaster Assistance Improvement Plan

                                                   Page 14
Appendix B
Management Comments to the Draft Report




          Page 2

          FEMA rCl:ommcnds that Table) be updated as follows:

                                                                                   Number (If
                                Stalus of Completi')D                            RequiremenlS or
                                                                                    Aetivilies
           Re uirements 10 be com IctLxI b December) I. 2008                             30
           R uirements com leled b Decentber) I. 2008                                    25
           Remainin 'R uiremenls as of December) I. 2008                                 5

          PAll' Internal Controls

          nte draft report indicales that FE:MA had not "developed. implemented or strengthened
          conlrols as required by the Executive Order:' This statement, while true with regard to
          PAIP, is not true for FEMA as an agency. Following Hurricanes Katrina and Rita,
          FEMA implemented measufCS to tighten controls that would help prevent improper
          payments and other forms of waste. fmud and abuse. These eomrols were implemented
          prior to the Disaster Assistance Improvement Plait. At launch. DisasterAssistance.gov
          leveraged the conlrols previously implementtxl by FEMA.

          Some of the posl-Katrina contrvls thaI wcre continued under DAlP include automated
          verification of key eligibility fC<juirements such as identity. occupancy and ownership. as
          well as detcnnination of the validity of damaged dwelling :lddrt.'Sses. The registration
          intake system also ineludLxI significant measures to prevent duplicate registrations
          identified by duplicate Social Sc<;;urity Number, dumagLxI address. damuged phone und
          Electronic Funds Transfer infonnation.

          FEMA rCl:ommcnds that the second sentence of the SCl:tion be revised to refle<;t the
          following:

         "As of April 30. 2009. FEMA was in the process of drafting internal control standard
         operating procedures but had not yet developed. implemented or strengthened controls as
          required by the executive order beyond Ihose pre"ious!y imp"''''eJlled by the agelley
         following Hurricanes Kmdna and Rita:'

          In addilion. FEMA rc<;;ommends thaI Rccomlllendalion 112 be revised to reneet the
          following:

          "Develop. implement and strengthen internal controls to prevent improper payments and
          other foons of fraud. waste and abuse beyolld Illosc prC";'JIlsly implementcd by Ille
          agency fof{o\\'illg {-11".,kmws Klllri/w tlllIl Rita.




                          FEMA’s Disaster Assistance Improvement Plan

                                                    Page 15
Appendix B
Management Comments to the Draft Report




          Page 3

          pAIP Funding Concerns

          On page 7, Table 4: DHS/FEMA and Par/ner Agency FUllds Received ill FYs 2008 alld
          2009 reflects prognun funding reeeived as of April 30, 2009. The funding totals within
          the table are not accurate and should be revised to reflect the COlTC<:t funding receipts as
          of April 30, 2009.

          In FY 2008, the Department of Defense (DOD) funding contribution was $31 5,000 in
          addilion to in-kind services to be provided (estimated to be $161 ,373). The total
          estimaled value is $476,373; however, the actual total FY 200g funding providod by
          DOD was $315,000.

          In addition, the funding contributions for DHSlFEMA for both FY 2008 and 2009 are
          inaccurate. DHSlFEMA provided SI7,999,2800ffunding for FY 2008 and $17,990,000
          in FY 2009.

          As a result of the above corrections, the cumulative funding contributions for FY 2008
          and FY 2009 should be revised. Total funding for FY 2008 should be 524,095,999, and
          FY 2009, as of 4/3012009, should be S18,359,036.

          FEMA recommends that Table 4 be revised to reflect the following funding receipts:

             ..    DOD FY 2008 funding contribution equaled S315,OOO
             ..    DHSIfEMA FY 2008 funding contribution equaled SI7,999,280
             ..    DHSIFEMA FY 2009 funding contribution equaled $17,990,000
             ..    Total FY 2008 funding contribution equaled $24,095,999
             ..    Total FY 2009 funding contribution, as of April 30, 2009, equaled $18,359,036.

          FEMA concurs with the draft report's three recommendations and has taken actions to
          implement them. While we will be providing corrective action plans in our 9O-day
          response, we provide the following infonnation relative to the three recommendations:

          Recommendation #1: Implement a funding model to ensure that DHSfFEMA funds the
          entire DAIP program to include current contributions being made by the partner agencies
          to enhance the development and integration of the DAIP.

          Response: The DAIP Prognun Management Office (PMO) and the Partner Agency
          Working Group members worked diligently from July 2009 to March 2010 to develop
          and approve a funding model for the prognun that (I) promotes inter_agency cooperation;
          (2) incentivizes partners to build interfaces with DisasterAssistance.gov; and (3)
          equitably shares costs across all partners based on program metries collected during
          2009. On March 25, 2010, the new funding model was presented to the DAIP Executive
          SteeringCommittec (ESC), and on April 7, 2010 the FY 2012 funding model was
          ratified. To ensure that all partners, including DHSIfEMA, saw an overall reduction in




                           FEMA’s Disaster Assistance Improvement Plan

                                                     Page 16
Appendix B
Management Comments to the Draft Report




          Page 4

          their respective contributions from FY 2011 to FY 2012, DHSlFEMA accepted 94% of
          the funding commitment for the program. This reduced the collective partner
          contribution to approximately $1 ,024,000 for IT 2012. Funding decisions beyond IT
          2012 have not been made; however, the DAIP PMO and its Executive Sponsor continue
          to pursue lOO"h DHSIFEMA funding with the Office of Management and Budget's
          DHSlFEMA Resource Manager and the FEMA Chief Financial Officer.

          Recommendation #2: Develop, implement, and strengthen internal controls to prevent
          improper payments and other fonns of fraud, waste, and abuse.

          Response: Following Hurricanes Katrina and Rita, FEMA implemented controls to help
          prevent improper payments and other fonns of waste, fraud and abuse prior to the
          establishment of the Disaster Assistance Improvement Program Management Office.
          When DisasterAssistance.gov was launched on ~ber 31, 2008, the controls
          previously implemented by FEMA were leveraged. Since April 30, 2009, DAIP has
          worked with the FEMA Fraud Investigation Branch Chief and Individual Assistance
          Audit Group to identify additional controls that could be implemented with the
          development of a flagging system and holding queue. The Fraud Indicator (FI) System
          Operational Requirements Document has been created and implementation of the FI
          system is being planned for the first stage of Phase 3, ending June 2011, with
          enhancements throughout the remainder of Phase 3, which ends September 2013.

          Recommendation #3: Assist pilot states with integration capabilities in order to
          interface with DAIP and expand the pilot program to include other states that have state
          administered programs and an online capability to integrate with DisasterAssistance.gov.

          Response: The Food for Florida Disaster Supplemental Nutrition Assistance Program
          (DSNAP) is scheduled to be integrated with DisasterAssistance.gov in June 2010. DAIP
          is developing a generic DSNAP interface that can be leveraged by other states. The
          DAIP PMO is currently working with the State of Louisiana, as they build their DSNAP
          system, so they will be able to leverage the generic interface under development. The
          DAIP PMO is also awaiting a response from New York, Oklahoma and Ohio on their
          abilities to leverage the generic DSNAP interface for their states.

          In addition to DSNAP, the DAIP PMO is currently reviewing paper applications for
          states administering Disaster Unemployment Assistance (DVA) to detennine the baseline
          data collection requirements across all state DUA programs. Our program sponsors in
          the Recovery Directorate have offered to help arrange meetings with the Department of
          Labor to further energize efforts to implement a DUA interface or a DAIP-hosted
          application that can be used by the states. During Phase 3, the DAIP PMO will work
          toward developing a generic OUA interface that could be leveraged by states as they
          automate their DUA systems.




                         FEMA’s Disaster Assistance Improvement Plan

                                                  Page 17
Appendix B
Management Comments to the Draft Report




          PageS

          Lastly, we will expand outreach and integration discussions across all states offering
          federally funded, state-administered fOlms ofassistance.

          Thank you again for the opportunity to comment on this draft report and we look forward
          to working with you on other issues as we both strive to improve FEMA.




                          FEMA’s Disaster Assistance Improvement Plan

                                                   Page 18
Appendix C
Major Contributors to This Report

                   Donald Bumgardner, Director
                   Philip McDonald, Supervisory Auditor
                   Stuart Josephs, Auditor
                   Francine Barone, Auditor




                     FEMA’s Disaster Assistance Improvement Plan

                                         Page 19
Appendix D
Report Distribution

                      Department Of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Audit Liaison (08-136-EMO-FEMA)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                       FEMA’s Disaster Assistance Improvement Plan

                                           Page 20
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
